No. 20-8072
IN THE

Supreme Court of the United States
BYRON MONTIJO–MAYSONET, PETITIONER,
v.
UNITED STATES OF AMERICA
CERTIFICATE OF SERVICES
I hereby certify that, in accordance with Supreme Court Rule 29
and the Court’s April 15, 2020 Order, all parties required to be served
have been served with copies of the foregoing REPLY BRIEF FOR THE
PETITIONER, via e-mail, today July 7, 2021. All parties had previously
consented to electronic service consistent with this Court’s order of April
15, 2020: Elizabeth B. Prelogar, Acting Solicitor General, United States
Department of Justice, 950 Pennsylvania Ave., NW, Washington, D.C.
20530-0001, SupremeCtBriefs@usdoj.gov, (202) 514-2217.
I declare under penalty of perjury the foregoing is true and correct.
Executed on July 7, 2021.
S/KEVIN E. LERMAN

Research & Writing Attorney
Federal Public Defender,
District of Puerto Rico
241 F.D. Roosevelt Ave.
San Juan, PR 00918
(787) 281-4922
Kevin_Lerman@fd.org
July 7, 2021

